<html>
<title> - DEPARTMENT OF DEFENSE MANAGEMENT OF HISTORIC AND HISTORIC-ELIGIBLE FACILITIES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 109-123]
 
                         DEPARTMENT OF DEFENSE
                       MANAGEMENT OF HISTORIC AND
                      HISTORIC-ELIGIBLE FACILITIES

                               __________

                                HEARING

                               BEFORE THE

                         READINESS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 8, 2006

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     


                    U.S. GOVERNMENT PRINTING OFFICE
33-591                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                         READINESS SUBCOMMITTEE

                    JOEL HEFLEY, Colorado, Chairman
JOHN N. HOSTETTLER, Indiana          SOLOMON P. ORTIZ, Texas
WALTER B. JONES, North Carolina      LANE EVANS, Illinois
JIM RYUN, Kansas                     GENE TAYLOR, Mississippi
J. RANDY FORBES, Virginia            NEIL ABERCROMBIE, Hawaii
JEFF MILLER, Florida                 SILVESTRE REYES, Texas
MIKE ROGERS, Alabama                 VIC SNYDER, Arkansas
JOE SCHWARZ, Michigan                ROBERT A. BRADY, Pennsylvania
CATHY McMORRIS, Washington           SUSAN A. DAVIS, California
JOHN M. McHUGH, New York             JIM MARSHALL, Georgia
HOWARD P. ``BUCK'' McKEON,           KENDRICK B. MEEK, Florida
    California                       MADELEINE Z. BORDALLO, Guam
ROBIN HAYES, North Carolina          TIM RYAN, Ohio
ROB SIMMONS, Connecticut             MARK UDALL, Colorado
JEB BRADLEY, New Hampshire           G.K. BUTTERFIELD, North Carolina
CANDICE MILLER, Michigan
TRENT FRANKS, Arizona
                 Jeff Green, Professional Staff Member
                Andrew Hunter, Professional Staff Member
                    Heather Messera, Staff Assistant

                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Wednesday, March 8, 2006, Department of Defense Management of 
  Historic and Historic-Eligible Facilities......................     1

Appendix:

Wednesday, March 8, 2006.........................................    25
                              ----------                              

                        WEDNESDAY, MARCH 8, 2006
  DEPARTMENT OF DEFENSE MANAGEMENT OF HISTORIC AND HISTORIC-ELIGIBLE 
                               FACILITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hefley, Hon. Joel, a Representative from Colorado, Chairman, 
  Readiness Subcommittee.........................................     1
Ortiz, Hon. Solomon P., a Representative from Texas, Ranking 
  Member, Readiness Subcommittee.................................     3

                               WITNESSES

Armbruster, Hon. William A., Deputy Assistant Secretary of the 
  Army, Installations & Environment, Privatization and 
  Partnerships, Department of the Army...........................     7
Flock, Brig. Gen. James F., Assistant Deputy Commandant for 
  Installations and Logistics, Headquarters, U.S. Marine Corps...    10
Grone, Hon. Philip W., Deputy Under Secretary for Installations 
  and Environment, Office of the Secretary of Defense............     4
Kuhn, Hon. Fred W., Deputy Assistant Secretary of the Air Force 
  for Installations, Department of the Air Force.................    11
Shear, Rear Adm. Wayne G., Commander of U.S. Naval Installations, 
  Director, Ashore Readiness Division, Office of Chief of Naval 
  Operations.....................................................     9

                                APPENDIX

Prepared Statements:


    Armbruster, Hon. William A...................................    45
    Flock, Brig. Gen. James F....................................    68
    Grone, Hon. Philip W.........................................    29
    Kuhn, Hon. Fred W............................................    78
    Shear, Rear Adm. Wayne G.....................................    56

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:


    Mr. Jones....................................................    89
    Dr. Snyder...................................................    89
    Mr. Taylor...................................................    89


  DEPARTMENT OF DEFENSE MANAGEMENT OF HISTORIC AND HISTORIC-ELIGIBLE 
                               FACILITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                    Readiness Subcommittee,
                          Washington, DC, Wednesday, March 8, 2006.
    The subcommittee met, pursuant to call, at 2:01 p.m., in 
room 2118, Rayburn House Office Building, Hon. Joel Hefley 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. JOEL HEFLEY, A REPRESENTATIVE FROM 
           COLORADO, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Hefley. The committee, such as it is, will come to 
order.
    Today, the Readiness Subcommittee meets to hear testimony 
from the Department of Defense (DOD) on the management of 
historic facilities.
    Historic property management is a challenging task for the 
Department. Not only is DOD responsible for managing tens of 
thousands of historic properties, ranging from hangars to 
houses and barracks to bunkers, but their properties are often 
greatly appreciated by local historians.
    While the Department has a responsibility to identify and 
preserve these historic facilities under the National Historic 
Preservation Act of 1966, for many properties the price of 
doing so is becoming a difficult one to bear.
    Over the past year, I have personally walked through the 
historic homes of the Army chief of staff, the Air Force chief 
of staff, the chief of naval operations and the superintendent 
of West Point. I have seen the tremendous amount of work that 
needs to go into these facilities to repair and upgrade them to 
modern standards. And in many cases, I cannot imagine the day 
that Congress will provide the amount of money necessary to 
fund all of these necessary repairs.
    For example, last year, the Army requested authority to 
spend more than $1 million to repair the roof at the 
superintendent's home at West Point, New York. According to the 
Army, this home may require an additional $6 million in 
repairs, even after the roof structures are fixes.
    Also, last year, the Navy requested authority to spend more 
than $300,000 to study a mold problem at an historic house at 
the Navy Yard in Washington, D.C., but according to the Navy, 
complete repairs to this unit are likely to cost between $2.6 
million and $5.2 million.
    And most recently, the Navy submitted to spend over $5 
million for historic remediation at Naval Air Station 
Pensacola, Florida, in order to meet the terms of a negotiated 
settlement between the State Historic Preservation Office 
(SHPO), the Navy and the Advisory Council on Historic 
Preservation.
    While preserving our nation's history is important, the 
Federal Government does not have unlimited resources, so it is 
essential that we strike a balance between historic interests, 
common sense and fiscal reason.
    As much as we might want to keep and repair certain 
historic houses, our nation simply cannot afford to spend 
millions of dollars on any one home. We must find other ways to 
fund these needs, reduce costs or transfer the asset to someone 
who can afford it.
    I spend a large portion of my time in Congress working on 
DOD's facility budgets. I am well aware of the Department's 
annual failure to fully fund and execute sustainment at base 
operations budget. I have seen the leaking barracks, the 
substandard child care development centers and failing family 
housing units that result fro underfunding.
    Readiness budgets, alike, are under extraordinary 
pressures. Training, body armor, weapons, vehicles and daily 
operations all cost great amounts of money. Failure to fund 
these requirements costs readiness, a price that can be paid 
with the lives of our service members.
    So it is in this context that we must consider the relative 
merits of spending millions of dollars to repair any single 
housing unit.
    Unfortunately, there are no simple solutions. We cannot and 
should not tear every expensive historic structure. We cannot 
simply give every historic facility away without compromising 
the security of our installations, and we cannot afford the 
massive sums necessary to support all the historic structures.
    In my opinion, the solution is likely a combination of the 
following: First, DOD should take an aggressive a more 
aggressive approach of preservation for those facilities that 
are truly historic and demolition of those that are not; 
second, DOD and Congress must do some thinking outside of the 
box to find ways to reduce costs associated with preservation; 
and, third, DOD must more frequently employ adaptive reuse, 
enhanced use leasing and other authorities to maximize the 
value of any given historic structure.
    I hope that our witnesses will take this opportunity to 
have a frank discussion with the subcommittee about these 
issues. I hope that they will tell us about the true nature of 
the challenge, the roadblocks to overcoming these challenges 
and share any ideas they may have for more effective historic 
property management at the Department of Defense.
    This is not a new deal. Mr. Grone and I, back in 1995, took 
over the Military Construction Committee, and we realized what 
a deplorable status our family housing was at many of the 
bases, and we set about to develop what is now the 
Privatization Program, which has done, and is still doing, a 
tremendous amount toward getting our service members in decent 
housing.
    But one of the things that always bothered us then, and 
now, at least me, and I think Phil would agree, probably, is 
that while we were clawing out with our fingernails trying to 
get the money for family housing so we would have adequate 
housing for our young soldiers, we were also having to deal 
with these horribly expensive historic properties.
    And I am an historic preservationists. I like to preserve 
history, and I often cite Warren Air Force Base as an example 
of how you can take historic structures and use it for modern 
purposes. It was a cavalry post and now is a missile base, 
beautifully done. There are others that we could cite, but as I 
walk through some of these deteriorating structured, I am just 
dismayed at what we ought to be doing with them.
    Someone asked me a while ago at lunch that mentioned that 
we were having this hearing and they said, ``Are you really 
going to jump on them?'' And I said, ``No, we are not going to 
jump on them. We want to sit down with them and decide together 
what ought to be done to solve this problem.'' And it is not an 
endless source of money.
    Let me refer now and turn the microphone over to Solomon 
Ortiz who has, during most of this time, been with me in this 
process, as we have tried to struggle with this. And, 
obviously, we have not come up with the answer yet, and we hope 
our witnesses will.
    Solomon, I turn it over to you.

   STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE FROM 
         TEXAS, RANKING MEMBER, READINESS SUBCOMMITTEE

    Mr. Ortiz. Thank you, Mr. Chairman. I join you in welcoming 
our distinguished witnesses, and I look forward to hearing 
their testimony on this very important issue.
    Historic facilities are a difficult issue for this 
committee and the DOD to tackle. Our country may not be old by 
many standards, but we have a storied history in which our 
military has played a very, very vital role. It is impossible 
to separate many of the significant events in our national 
history from the military or its facilities. Locations like 
West Point, Pearl Harbor, Hill Air Force Base and Quantico are 
some representatives of the rich history.
    The culture of the military and its connections to the past 
makes it especially difficult to solve some of the problems 
that will be presented by our witnesses today.
    Historic buildings can be expensive to maintain and are 
often not easily converted for modern purposes. In my district, 
there are Navy aircraft hangars that required very expensive 
renovations because of the historic status. This presented a 
significant financial and time problems for the installations 
as it attempted to balance its historic preservation duties 
against its mission in a constrained facilities maintenance 
budget.
    I recognize the upkeep and operation of historic structures 
is a strain for the Department of Defense. The services did not 
ask to be saddled with old buildings, leaking roofs and mold in 
the basements, but it is their slice of American history, and 
they are currently the stewards of that history.
    I believe that a careful balance must be struck between 
preservation and progress. We must seek innovative solutions 
that will serve our past but allow us to move forward into the 
future.
    Mr. Chairman, the military's mission is to defend our 
nation. This is their paramount task. But they also must 
balance other interests when meeting this mission. They must be 
good stewards of the environment, the employees and in this 
case the nation's history. I look forward to hearing the 
testimony of our witnesses and their thoughts on how we can 
continue to honor our past and provide for the national 
defense. And, you know, my good friend is going to abandoned 
me. He said he is thinking about retirement. I hope he changes 
his mind so we can find a solution to this problem.
    Mr. Hefley. Good. And let's hope it will not take that 
long, but I may have to get back in the race, Solomon, if we do 
not get this solved.
    Mr. Ortiz. I hope so.
    Mr. Hefley. But it is something that, as both of us have 
stated, that we have all been working on a long time, and we 
really do need to find a solution.
    And I do not know anybody that has devoted himself to 
looking at this more than you have, Mr. Grone. Of course, you 
did not have such a long and fancy title when you started 
looking at this, and I want you to know, this committee is 
impressed.
    And so we will turn the microphone over to you, and then we 
will kind of go down the line there with your thoughts and 
hopefully with your answers to the problem.

 STATEMENT OF HON. PHILIP W. GRONE, DEPUTY UNDER SECRETARY FOR 
   INSTALLATIONS AND ENVIRONMENT, OFFICE OF THE SECRETARY OF 
                            DEFENSE

    Secretary Grone. Well, thank you, Mr. Chairman, Mr. Ortiz, 
members of the subcommittee. It is, indeed, a pleasure to be 
back before the Subcommittee on Readiness to discuss matters of 
general management practice for the Department of Defense.
    And this afternoon, in particular, I am pleased to be here 
to discuss our management of historic properties in the built 
environment as well as other cultural resources that are 
managed by the Department of Defense.
    And I appear here with a multiplicity of capacities. I am 
the Deputy Undersecretary of Defense for Installations and 
Environment. I am the senior policy official for Federal 
Preservation in the Department and the Secretary's 
representative to the Advisory Council on Historic Preservation 
as well as the senior real property officer of the Department 
of Defense.
    And, in many ways, what we are doing is unifying our 
treatment, unifying our policy approaches within the context of 
the inventory in a comprehensive asset management strategy to 
provide for some of the solutions or at least a path forward on 
some of the solutions that both the chairman and the ranking 
member spoke of the need to secure.
    The Department currently manages nearly 507,000 buildings 
and structures with a plant replacement value of over $650 
billion and more than 46,000 square miles of real estate. And 
as part of that inventory, DOD has management responsibility 
for 75 national historic landmarks, as well as nearly 600 
historic entries listed on the National Register of Historic 
Places, which encompass more than 19,000 individual historic 
properties--buildings, structures, objects and sites--located 
on over 200 military installations.
    And within the inventory itself, the Department currently 
manages nearly 345,000 buildings. The National Historic 
Preservation Act (NHPA) requires us to evaluate properties when 
they reach 50 years of age to determine if they are eligible 
for the National Register of Historic Places. Currently, about 
32 percent of DOD's buildings are older than 50 years, and 
based upon current inventory forecasts that do not yet take 
into account the effects of Base Realignment and Closure 
(BRAC), that percentage will increase rapidly over the next 20 
years.
    Ten years from now, the inventory could have over 55 
percent of our inventory older than 50 years, and we will need 
to evaluate each of those buildings to determine their 
eligibility for the register and therefore whether they are 
subject to the requirements of the National Historic 
Preservation Act. And in 20 years, that percentage could grow 
to nearly two-thirds.
    Our efforts, however, are focused on the development of a 
comprehensive program that enables us to manage these resources 
efficiently and effectively.
    Executive Order 13327, concerning Federal real property 
asset management, requires all Federal agencies to identify and 
categorize all Federal real property. In addition, Executive 
Order 13287, concerning Preserve America, requires all Federal 
agencies to improve their accountability of their historic 
property assets. And working in concert, these executive orders 
present a unique opportunity to integrate how the treatment and 
management of historic properties into the broader real 
property asset management process of the Department, frankly, 
as assets that must meet the day-to-day mission needs of all 
Federal agencies, to include the Department of Defense.
    And to speak frankly to a couple of the points that the 
chairman and ranking member have made, there are three items I 
would like to just mention very briefly. One is the question of 
data, what are we doing to understand what we own, where it is 
and what its condition is.
    As part of the Business Management Modernization Program 
for which this subcommittee has jurisdictional oversight, we 
are working to provide that kind of data that GAO has 
previously and rightly criticized us for lacking in our 
inventory control processes. And as we are planning historic 
status, worked out in concert with the Advisory Council on 
Historic Preservation, for purposes of the broader Federal real 
property inventory reporting requirements, has been adequately 
defined as part of our Federal responsibility, the interagency 
responsibility, as well as those internal to the Department.
    As of today, our plan would have the Army and Washington 
Headquarter Services reporting historic status, comprehensively 
with the fiscal year 2005 inventory report, per the guidance of 
the Federal Real Property Council. The Air Force and the Navy 
will be submitting those revised inventory reports with the 
fiscal year 2006 inventory submission. So we are making 
progress significantly on the question of raw data.
    Second, to the question of program approaches and asset 
management planning, the assets that the chairman, in 
particular, spoke about are important assets. They are critical 
assets, and we can talk about those particular projects in 
detail as our discussion today evolves.
    We often think, and many often think, of the National 
Historic Preservation Act in the context of its 106 and the 
consultation process around singular and specific assets; in 
many cases, the assets that the chairman mentioned. That is 
important in and of itself and provides a process that is 
critically important.
    But the National Historic Preservation Act also provides 
for alternative processes that have allowed us the latitude, in 
working with the interagency, working with external 
stakeholders, state historic preservation officers, tribes, as 
well as the Advisory Council on Historic Preservation, to 
design a process that utilizes full programmatic approaches.
    The Program Comment, fully authorized under the 1966 act, 
utilized for the first time in the context of Capehart-Wherry 
housing for the Department of the Army. And building on that 
approach with the programs of the Navy and Marine Corps and the 
United States Air Force, we now have 82,000 units of Capehart-
Wherry era housing that are subject to the programmatic 
agreement with the Advisory Council on Historic Preservation.
    That process, that approach, streamlines our compliance 
costs. We estimate that we will save $80 million to $90 million 
in compliance costs through the utilization of that one 
programmatic treatment.
    Now, we are building on that for the future with 
programmatic approaches to take on the question of post-World 
War II era barracks and ammunition storage facilities. The Navy 
is also looking to a programmatic approach to deal with the 
question of Navy ships.
    So we are using the act flexibly, creatively in ways that 
are authorized by the statute but with a new business approach 
and a new business model to try to provide treatment for, 
appropriate documentation of but not necessarily the direct 
preservation of each unit of a given class of housing. And that 
is a critically important balancing act that we are effectively 
utilizing.
    For our overarching business practices, the chairman spoke 
about the question of sustainment, the question of base 
operating support, the question of our facilities 
recapitalization strategy. The President's budget request 
provides for 90 percent of the need to sustain our facilities. 
Last year, we improved our execution of facilities sustainment 
significantly, and we are looking with controls in our 
financial systems to improve that execution every year.
    Critically important in the development of our sustainment 
and recapitalization model are that we are continuing to 
improve our private sector benchmarks, to improve the 
benchmarks that we draw from the public sector, to ensure that 
as we build a program and a budget that we have an adequate 
understanding of the cost of maintaining our facilities.
    And as the members know, it is a significant and sizeable 
hole which we have dug ourselves over many, many years. 
Adequate sustainment is the foundation of our broader 
facilities strategy in which historic properties are also a 
part.
    And one of the reasons that a number of reports have 
demonstrated that the cost of historic assets and the 
maintenance of them are so high is because they have lacked 
adequate facilities, they would call it maintenance, we would 
call it sustainment, over many years. And that once those 
assets are normalized for adequate sustainment, once they are 
normalized in relation to size and put on a square footage 
basis, the cost to sustain those assets over time is roughly 
equivalent, if only marginally more expensive, for an historic 
asset than it is for a non-historic asset. All the data, all 
the private sector data demonstrate that.
    The question is, will we undertake the business approaches 
that the chairman spoke about--enhanced use leasing, furthering 
that as part of the area within the Department's management 
responsibility? Will we forcefully move out on further adaptive 
reuse? We are all committed to looking at new approaches in 
both the enhanced use lease area and in adaptive reuse to 
provide ourselves with a solid foundation for the future.
    In addition, we are privatizing a good number of our 
housing assets through the military housing privatization 
initiative with appropriate treatment for historic character, 
landscapes, viewscapes in a way that is consistent with what 
state historic preservation officers have consulted with us 
upon.
    So we are building a variety of tools in our toolkit to 
deal with the underlying problems in historic properties. We 
will not turn this problem around tomorrow, but I believe that 
we, as a department, have begun to put ourselves on sound 
management footing, looking ahead to the future to be able to 
treat these assets with the full mission capability that they 
deserve.
    The key is appropriate asset management at the end of the 
day, while recognizing our responsibility for cultural resource 
preservation in the context of the mission needs of the 
Department of Defense. And, again, we believe that the policy 
approach that we have taken, the management approach that we 
have taken is leading us down that path.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Grone can be found in 
the Appendix on page 29.]
    Mr. Hefley. Thank you, Mr. Grone.
    And now representing the Army, Mr. Bill Armbruster.

   STATEMENT OF HON. WILLIAM A. ARMBRUSTER, DEPUTY ASSISTANT 
      SECRETARY OF THE ARMY, INSTALLATIONS & ENVIRONMENT, 
     PRIVATIZATION AND PARTNERSHIPS, DEPARTMENT OF THE ARMY

    Secretary Armbruster. Mr. Chairman, members of the 
subcommittee, it is a pleasure for me to be here today to 
represent the Army and to discuss the Army's historic 
properties program.
    The Army is a responsible steward of our historic legacy 
and the cultural resources that have been entrusted to us. As 
the oldest of the defense services, the Army has strong ties to 
its history and the places that have helped to shape this 
country's destiny.
    Of our U.S. inventory of over 153,000 structures and 
buildings, 41 percent currently are over 50 years old and are 
subject to compliance of the NHPA. And in the next 20 years, 68 
percent of our buildings will be over 50 years and require NHPA 
compliance.
    Well, this large and growing inventory of historic 
properties obviously poses a challenge and has cost 
implications that we must address, but there continue to be 
questions regarding the high cost of renovating and maintaining 
historic properties.
    And as Mr. Grone has indicated, evaluations and studies 
have shown that when reviewed over the per square foot or the 
life cycle of this particular structure, that the costs are 
approximately the same as for non-historic buildings and often 
the initial costs for materials used in historic buildings are 
high, but those materials last longer and they result in a life 
cycle cost savings.
    We in the Army continue to seek innovative solutions to 
address the challenges of limited funding, underutilized space 
and compliance requirements. There are three options for us in 
managing our historic properties. We can use and maintain them, 
we can privatize them or we can demolish them.
    The Army chooses to use and maintain most of our historic 
properties, and in concert with the Advisory Council on 
Historic Preservation, we have established several initiatives 
to streamline the project management and consultation processes 
and reduce costs.
    Mr. Grone has referred to most of these, but, of course, 
one of our most important and effective NHPA compliance tools 
is to address our growing inventory through the Program 
Comment. And in conjunction with the advisory council, the Army 
completed a Program Comment for Cold War era Capehart-Wherry 
housing, as Mr. Grone had mentioned. And this satisfied the 
NHPA compliance requirements for nearly 20,000 Army buildings 
and has proven especially beneficial for family housing 
privatization projects under our residential communities 
initiative.
    Additional Program Comments are in the final stage of 
coordination, as Mr. Grone indicated--World War II, Cold War 
era barracks, ammo storage facilities and ammo plants as well. 
These Program Comments will satisfy the NHPA compliance 
requirements for approximately 35,000 Army buildings.
    Now, the Army has also initiated something we call the Army 
alternate procedures, and this is a unique NHPA compliance 
approach that streamlines the process and allows installations 
to better manage compliance requirements. These alternate 
procedures are based on consultation and agreement among key 
stakeholders to create a five-year NHPA compliance plan.
    These procedures eliminate the need for consulting on 
individual projects and allow installations to proceed in 
accordance with agreed standards. We have just learned that our 
first pilot effort under the alternate procedures process has 
been approved at Fort Sam Houston in Texas, and this was 
approved by the advisory council last week.
    We expect that Fort Benning, Georgia will follow shortly as 
a second pilot effort, and we have about seven additional 
installations in the queue to implement this program.
    The Army is also pursuing enhanced use leasing of historic 
properties to the private sector. At Fort Sam Houston in Texas, 
the Army leased to a private developer three historic 
buildings, containing approximately a half million square feet 
of space. The resulting actions preserved the buildings and 
eliminated the Army's responsibility to rehabilitate and 
maintain them. And we are pursing another enhanced use leasing 
opportunity for the William Beaumont Hospital Historic District 
at Fort Bliss, Texas.
    There are 278 historic buildings identified as important by 
the SHPO in Texas that were competitively offered to the 
private sector for restoration and utilization. Now, the 
selected bidder and the Army are currently negotiating a 
business and lease plan that we hope will lead to the execution 
of a lease.
    The Army is also taking advantage of the private sector by 
including these properties in our residential communities 
initiative, or RCI. And you mentioned that, Mr. Chairman. The 
Army is very proud of that program. We have achieved phenomenal 
success with RCI, and, to date, we have privatized 64,000 homes 
at 27 installations. And included in this number are over 2,500 
historic units.
    And, finally, I want to tell you about a program the Army 
has initiated, which we call the Army Community Heritage 
Partnerships Program. And this initiative is intended to 
strengthen the economic, historic and social ties between Army 
installations and the adjacent communities. The program, which 
is now extended to seven communities, supports the President's 
executive order, Preserve America, and it partners with the 
National Trust Main Street Center.
    In concluding my comments, Mr. Chairman, the Army has a 
wealth of historic properties that support our mission 
requirements. We are proud of our leadership role. It balances 
stewardship with responsible management of historic property.
    We appreciate your continued support for our initiatives, 
and I look forward to discussing this topic further with 
members of the subcommittee.
    Thank you very much, sir.
    [The prepared statement of Secretary Armbruster can be 
found in the Appendix on page 45.]
    Mr. Hefley. Thank you, Mr. Armbruster.
    And now representing the Navy, Rear Admiral Wayne Shear.
    Mr. Shear.

STATEMENT OF REAR ADM. WAYNE G. SHEAR, COMMANDER OF U.S. NAVAL 
 INSTALLATIONS, DIRECTOR, ASHORE READINESS DIVISION, OFFICE OF 
                   CHIEF OF NAVAL OPERATIONS

    Admiral Shear. Good morning, Mr. Chairman, members. I am 
the director of ashore readiness in the Office of Chief of 
Naval Operations and really appreciate the opportunity to speak 
today about the Navy's program for complying with the National 
Historic Preservation Act.
    Historic buildings, clearly, just as in the Army, are a 
valuable part of our portfolio. They remind us of the people 
and events of our history, and they are important to our 
veterans, our retirees and our communities and certainly the 
people that work on our installations.
    As has been noted previously, the Navy, as well as the 
other services, have been able to strike a balance between 
mission requirements and rehabilitation of historic buildings 
in a way that supports our mission and effectively uses those 
assets and strikes a solid balance. The Navy Yard right here is 
an excellent example of this on a very large scale.
    Other situations, and you have noted a couple, are more 
challenging. Some historic properties are easily adapted to 
changing requirements. Other buildings, especially temporary 
structures or specialized structures, may be much harder to 
adapt.
    In some places, the mission of the installations has 
changed over the years. You noted the national historic 
landmark at the Naval Air Station Pensacola. It includes 
properties from the 19th century Pensacola Navy Yard, seaplane 
facilities associated with the first days of naval aviation 
early in the 20th century, and the district is located on the 
waterfront, as you would expect navy yard and seaplane 
facilities to be. However, the mission focus of the 
installation has shifted away from the waterfront years ago.
    The national historic landmark district bore the full force 
of Hurricane Ivan in the fall of 2004, as you well know. Now, 
the naval air station mission is no longer focused on the 
waterfront. We had to think very carefully with the help of 
Congress about how to balance our risk for future storms with 
the preservation of that historic resource and continuing the 
mission effectively in Pensacola.
    Historic property management offers opportunities as well 
as challenges, as we have seen, and we appreciate the 
leadership of the Department of Defense in exploring new ways 
to succeed. We have been able to partner with other services 
and organizations to streamline our compliance actions, where 
appropriate to find continued use for historic buildings and to 
ensure our real property inventories accurately reflect 
historic buildings.
    We look forward to answering your questions and working 
with you on this very important issue. Thanks for the 
opportunity to speak today.
    [The prepared statement of Admiral Shear can be found in 
the Appendix on page 56.]
    Mr. Hefley. Thank you, Admiral.
    And now representing the Marine Corps is Brigadier General 
James Flock.
    General Flock.

   STATEMENT OF BRIG. GEN. JAMES F. FLOCK, ASSISTANT DEPUTY 
COMMANDANT FOR INSTALLATIONS AND LOGISTICS, HEADQUARTERS, U.S. 
                          MARINE CORPS

    General Flock. Good afternoon, Mr. Chairman and members of 
the committee. I am the assistant deputy commandant for 
installations and logistics, Headquarters U.S. Marine Corps. I 
appreciate this opportunity to appear before you today, and 
with your approval, I will submit my full statement for the 
record and give you a brief summary of that statement.
    I am particularly pleased that you have chosen to focus on 
the management of historic buildings by the military services. 
These buildings remind us of the sacrifices and accomplishments 
of those that have gone before us. In short, they inspire us to 
continue to strive to be the best and serve as touchstones that 
bind all Americans to a common heritage.
    We are proud to be the stewards of these resources; 
however, they pose a management challenge.
    Although we are a small military service in terms of the 
numbers of installations we manage, these installations support 
about 7,000 buildings that are over 50 years old. Of these, 347 
buildings are currently listed on the National Register of 
Historic Places, including 6 general officer quarters. An 
additional 398 buildings are eligible for listing on the 
national register.
    Our inventory of historic eligible buildings has the 
potential to grow to over 14,000 buildings in the next 10 
years. We have demolished some historic family housing 
buildings and are developing plans to demolish more. 
Ultimately, about 4,000 family housing dwellings will be 
replaced with new construction through a variety of means, 
including public and private ventures.
    In 1994, we implemented a long-term plan to properly care 
for our historic general officer quarters with limited 
disruption to the occupants and minimal financial impact on the 
remainder of the family housing program. We successfully 
completed this program in 2002.
    In conclusion, Mr. Chairman, I would like to thank the 
committee for its interest and support in our management of 
historic buildings. We take our stewardship of these resources 
very seriously. Many of these resources are national icons, and 
we view their protection as a moral imperative.
    Mr. Chairman, this concludes my statement. I will be 
pleased to answer any questions you may have.
    [The prepared statement of General Flock can be found in 
the Appendix on page 68.]
    Mr. Hefley. Thank you, General Flock.
    And, Mr. Kuhn, Deputy Assistant Secretary of the United 
States Air Force Installations, would you please present to the 
committee.

 STATEMENT OF HON. FRED W. KUHN, DEPUTY ASSISTANT SECRETARY OF 
  THE AIR FORCE FOR INSTALLATIONS, DEPARTMENT OF THE AIR FORCE

    Secretary Kuhn. Thank you, sir.
    Mr. Chairman, Mr. Ortiz, members of the subcommittee, it is 
indeed a pleasure to be with you today to talk about this 
subject.
    The Air Force well recognizes that there is a balance 
between preserving the nation's history, which has been 
entrusted to us at our installations, and the costs associated 
with maintaining those buildings.
    Rather than go into great detail and perhaps be repetitive 
of my colleagues to my right, because we do share the same 
issues, I would like to highlight four areas that the Air Force 
is at least attempting to focus on as we deal with this 
problem.
    One, as Mr. Grone said, the programmatic comment process 
associated with Wherry housing I think is a very significant 
process; adaptive reuse, which we have or about to use, both in 
housing and in non-housing buildings associated with the 
Historic Preservation Act; housing privatization itself, our 
housing privatizations are whole-based, everything is included, 
including the historics, and we are trying to work our way 
through some mechanisms that will allow the historic nature of 
a house to perhaps be a tax incentive to the successful 
offeror.
    And, finally, we think that if we could develop, and are 
developing now, a real property asset management system that 
will allow us to drill down into the costs of any building, 
both its historic nature and its non-historic nature, I think 
we would be able to have a much better grasp on the problem.
    With that, I would like to yield any remaining time I have 
to you, Mr. Chairman, for the discussion period.
    Thank you.
    [The prepared statement of Secretary Kuhn can be found in 
the Appendix on page 78.]
    Mr. Hefley. Well, thank you very much, all of you.
    I think I will defer my questions until later and turn it 
over to Mr. Solomon if you have questions.
    Mr. Ortiz. Thank you, Mr. Chairman.
    You know, it appears that each service is managing their 
historic facilities in a decentralized fashion. Individual 
installations are forced to negotiate directly with the state 
historic preservation offices and on the local level, and I 
have seen that in my state and my community.
    This decentralized management fails to establish a uniform 
standard for maintaining historic facilities and fails to 
assist the local installations when extreme local requirements 
are placed upon a base.
    Do you feel that the Department will benefit from a more 
centralized management of historic facilities? Anyone that 
would like to answer.
    Secretary Kuhn. At least, I think my Air Force view is 
going to be that I think that negotiating and dealing with 
these issues at the installation level is the place we need to 
start. Historic preservation is one of the many consultative 
processes we engage in at the installation level with both the 
state and the Federal regulators, be they environmental, 
historic preservation, et cetera.
    I think that that process has worked for us. If there have 
been abuses, they have never come to my attention. Could they 
always be better? I am sure, but I think we have attempted and 
are pretty much striking the balance between historic 
preservation and costs. And I think the more we deal with that 
person at the installation level face to face, it seems to have 
been working for the United States Air Force.
    Secretary Armbruster. I might just add----
    Mr. Ortiz. Thank you. Go ahead.
    Secretary Armbruster [continuing]. For the Army, I would 
echo what Mr. Kuhn was saying. We work very closely with the 
SHPOs and have found in most cases the SHPOs to be very 
cooperative and it has been a good relationship.
    We have provided guidance to our installations just in the 
last couple of years to ensure that they know the process and 
they are working very closely again with the state officials as 
well as with our headquarters efforts and with OSD. We work 
very closely with Mr. Grone's office and with the ACHP as well.
    So I think we have got the procedures in place, and we have 
strengthened the hand of our garrison commanders in terms of 
how they deal in a responsible way with their historic 
properties.
    Mr. Ortiz. Thank you.
    Secretary Grone. Mr. Ortiz, if--I am sorry, Admiral, do you 
want to carry forward? We will do the services first.
    Admiral Shear. If I could make one comment. In the last two 
years, the Navy has organized with the commander of Navy 
Installations Command, and that has really helped us make a 
focus on this and many other areas from a portfolio standpoint 
across the entire Department of the Navy. So we have a cultural 
resources expert, we can make decisions looking across the 
whole Navy now that we could not really do as effectively a 
couple years ago. So I think we have gotten better in that 
regard.
    Secretary Grone. Mr. Ortiz, from an Office of the Secretary 
of Defense (OSD) level perspective, certainly, the services 
execute programs. Much of that negotiation, as was mentioned, 
occurs at the local level, and as issues need to be resolved, 
they move up through the varying service management structures 
for installations.
    But what we are trying to provide at the defense-wide 
level--and on page 10 of my prepared remarks there is an 
enumeration of some of the most recent projects and 
programmatic development that we have been working on on a 
joint basis to ensure consistency of treatment.
    So whether it is providing a sustainability guide, as we 
have previously for historic properties, working on now what we 
are working on, a handbook for contracting in the cultural 
resource compliance area at DOD installations, we are 
developing individual tools.
    In some cases, they will be guidance, and in some cases, 
they will be guides or checklists or very technical manuals to 
give installation commanders and people who execute our 
installation programs, at whatever level in the process they 
need to be executed, have consistency of treatment, consistency 
of guidance so that as they enter into a consultative process 
at the local, state or Federal level, that there is a solid 
foundation on which they can have that consultation.
    So in my mind, one of the important management approaches 
that we have tried to take is to try to provide that unitary 
set of guidance and structure to how to treat the asset so that 
in the field people have some surety about how to proceed.
    Mr. Ortiz. How do you, when you do it at the local level--
and maybe this is the way to do it--how do you budget? I mean, 
how do you set priorities as to which facility should get the 
money? I mean, how do you work that?
    When you make a request--let's say we have 10 states that 
have 10 old facilities. How do you set priorities so that you 
get enough funding to take care of that one or two, three 
facilities?
    Secretary Armbruster. Well, the Army, through its 
installations management agency, we work very closely with each 
installation, submitting their budget requirements and requests 
based on their installation and facilities requirements. And 
those come forward as military construction (MILCON) requests. 
And do we make a distinction between the historic properties? 
Again, depending on mission need and requirements, that is how 
we are going to prioritize them.
    So we recognize in many cases, again, the initial cost for 
some of our historic properties are going to be higher, but, as 
we was commented on earlier, we feel like if we are successful 
in sustaining these facilities, that over the long haul those 
costs will be no more than they would be for a newer 
construction building.
    But we have a very good program for sustainment and, again, 
identifying our mission needs and requirements. And, of course, 
with the new restationing requirements and modularity that the 
Army is facing, we have had to prioritize a number of those as 
well. But we do not shortchange it in terms of whether they are 
historic or not, but just on what the mission requirements 
might be.
    Mr. Ortiz. No more questions.
    Mr. Hefley. Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman. Gentlemen, welcome. 
Secretary Grone, welcome back.
    Secretary Grone. Thank you, sir.
    Mr. McHugh. Good to see you again. Just by way of comment, 
I was somewhat surprised to hear the service representatives 
strike such an optimistic tone with respect to dealing with the 
various SHPOs on a state-by-state basis. That is certainly good 
news.
    I know in New York state we have had some challenges out at 
West Point with regard to the superintendent's home that is 
going to cost about $7 million. I do not want all of that 
against the State Historic Preservation Office, but, clearly, 
they have a significant role to play.
    Admiral, you commented at how you are making progress. You 
had a lot of problems down at Pensacola. It took you a year, I 
believe, to get through that negotiation.
    So I guess that is a long, around-the-dock way of saying to 
Secretary Grone, I am pleased you are trying to work to try to 
establish some reasonable parameter within which everybody's 
interests can be best served, because this is an enormous 
problem. I am stating the obvious.
    I saw some data here. I have never seen these numbers, 
although I was pretty well aware of the initiative. GAO, 73,600 
properties within the Department will turn 50 years of age by 
2011, and I guess that is one of the prime determinants.
    How many properties--and if you gave this testimony 
earlier, gentlemen, I apologize, I arrived a little late--but 
how many properties--let's do it by department-wide--can you 
assess per year? You get to 2011, you are sitting there with 
over 73,000 properties that need to be assessed. How many are 
you going to knock off of here?
    Secretary Grone. Well, Mr. McHugh, those numbers also 
include individual to military family housing units. So if 
there were 3,000 Capehart-Wherry housings at an installations, 
there would be 3,000 items on that checklist that you were 
speaking about.
    One of the items that we discussed earlier was this 
question of programmatic treatment. And for individual assets, 
particularly crown jewel or other significant assets, those 
individual eaches are of significant consequence.
    But when we were talking about whole classes of assets, 
Capehart-Wherry era housing, hammerhead barracks, ammunition 
storage bunkers and the like, what we are trying to do in 
consultation with the Advisory Council of Historic Preservation 
and the interagency process and in close consultation and 
coordination with the National Conference of State Historic 
Preservation Officers, is to develop an approach that allows us 
to get beyond individual consultation on each one of those 
assets to a programmatic treatment that allows us to document 
the significance of the assets as a class of assets and that 
provides some surety and streamlining in the consultative 
process.
    And that allows us to do those assessments far more 
quickly, to get on with programmatic approaches and the 
modernization of some of those assets far more quickly than 
would otherwise be the case.
    Mr. McHugh. And I appreciate that, and that goes back, I 
think, to my earlier compliment, intended to be a compliment, 
that that needs to be done. But let's set those aside. On those 
areas where you have to go in and do a parcel-by-parcel 
evaluation, are you aware of how many you can, on average, 
handle a year?
    Secretary Grone. I would have to check for the record on 
how many we might do in a year. I have not looked at the 
question in quite that way.
    Mr. McHugh. That is an answer, and I appreciate that.
    In our background materials, and this did not come directly 
from your comments but I suspect it is consistent, stating the 
obvious, it talks about the total, how many properties are out 
there to be assessed. It says, the totals change regularly as 
historic properties are removed from the inventory, period. 
Assuming it is not a categorical removal on an evaluation, how 
do you remove a property that is deemed historic, say a Cold 
War era property, and take it off? Do you know the process for 
that?
    It just does not seem to me if you have got a property, in 
my experience, that is deemed historic you are going to get it 
off, short of somebody blowing it up in the middle of the 
night.
    Secretary Grone. Well, I mean, if we are talking about--it 
depends on what we mean by historic in this context. Is it 
eligible, is it listed, is it a national historic landmark? The 
process will vary slightly for each of those. But at the 
highest level of sensitivity, those items that are on the 
register, only the keeper of the register at the Department of 
Interior has the authority to delist, and there is a standard 
process for exercising that.
    We have other classes of assets that may be 50 years old 
but for which there is no historic value, an off warehouse or 
something like that. And through our demolition programs and 
the identification of that at the service level, if they 
execute their programs, we can effectively do that.
    Just a few years ago, in 1998, you recall there was a 
demolition program established for the Department. And, 
ultimately, over a 6-year period we took down, outside the BRAC 
process, 86 million square feet of property. Some of that was--
I do not know what the percentage of it might have been--but 
there was no question some of it was older World War II wood 
structures. With appropriate consultation, we were able to move 
out on an effective demolition program. And based on a renewed 
survey, which we started in 2004, the services have identified 
an additional 50 million square feet, again, not necessarily 
related to the BRAC process, of unneeded facilities that we 
intend to move out on to dispose of by the year 2013.
    So through our organic facility asset management process, 
and this is why the question of data is so important, and 
getting our inventory controls correct and understanding the 
condition of an asset in relation to its age, in relation to 
the mission need, that then provides a solid foundation for us 
to engage in consultation if necessary, and then if deemed not 
historic, not worthy of being preserved for which there is no 
adaptive reuse ability, then we can move out to remove those 
structures from the inventory. And that is the framework within 
which we try to manage the program.
    Mr. McHugh. Thank you, Mr. Chairman. I see my time has 
expired. I did have another question, but maybe I could submit 
that for the record.
    Thank you, Mr. Chairman.
    Thank you, gentleman.
    Mr. Hefley. Thank you, Mr. McHugh.
    Mr. Snyder.
    Dr. Snyder. Mr. Chairman, let me--Mr. McHugh, let me yield 
to you, like, two minutes or something so you can ask your 
final question.
    Mr. McHugh. I appreciate that. Thank the gentleman from 
Arkansas. I will be very brief. I take it by your answer--and I 
will direct this to Secretary Grone--given the process, the 
categorization initiative you have underway there, you are not 
at this time contemplating a request for any program 
legislation to amend the procedures under the National Historic 
Preservation Act.
    Secretary Grone. I am not.
    Mr. McHugh. Okay. Thank you.
    Thank you. Thank the gentleman.
    Dr. Snyder. Sure. General Flock, I appreciate you gentlemen 
being here today. This has kind of opened up a whole world for 
me I had not really thought much about, but I wanted to ask a 
question on your written statement, General Flock.
    I did not understand the last two or three sentences that 
begin at the end of page seven of your written statement: 
``There is no question that maintenance of historic buildings 
on a structural basis appear to be more costly than buildings 
that are not historic. However, it appears that the life cycle 
costs of historic buildings is similar to non-historic 
structures.'' I think it is the jargon for me. I do not 
understand those last two sentences.
    General Flock. Well, Mr. Snyder, the thought there was when 
you take a look at the life-cycle costs of these buildings or 
when you take a look at the cost of maintaining another type of 
building that may not have historic significance, anecdotally, 
the difference in cost may not be there.
    Dr. Snyder. I do not understand the first phrase of it that 
talks about maintenance on a structural basis does appear to be 
more costly. What does the phrase, ``structural basis,'' mean?
    General Flock. Sir, the structural basis, we are talking 
about the foundation, we are talking about the supports, the 
wall supports, but for the record, we will submit a more 
detailed response.
    [The information referred to can be found in the Appendix 
on page 89.]
    Dr. Snyder. Thank you, Mr. Chairman.
    Mr. Hefley. Mr. Jones.
    Mr. Jones. Chairman, thank you very much, and I will be 
brief with my questions.
    I am like, I think, Mr. Snyder said, with all the issues 
dealing with our military and sometimes we forget some of the 
important things like the historical properties that you have 
been talking about today, so this has really been very helpful.
    I guess, and probably it is in the testimony from Secretary 
Grone, but I did not read the testimony, I just got here, in 
the budget--well, how much in the budget, what percent of the 
budget is allocated for these properties that are 50 years old 
and also those that have been designated as historical? Can you 
give me in the billions or the millions? I am trying to get a 
feel for it, and maybe, again, if I had read the testimony, it 
is in there, but I just have not read it yet.
    Secretary Grone. Mr. Jones, I do not know that--well, we do 
not budget that way for sustainment and recapitalization of 
assets that are of a certain age. We have a programming and 
budget process to develop the resource requirements that are 
necessary for the sustainment and recapitalization of the 
entire asset base.
    But in order to get at precisely those questions under the 
Federal Real Property Council's mandates for the development of 
revised data to understand the cost of ownership, we are 
developing systems that will allow us to report costs at the 
constructed asset level. We do not have that data with great 
precision across the Department today, very few agencies do.
    But one of the things that we are doing under the context 
of the President's executive order on real property is to 
define a system and data reporting requirements that allow us 
to speak to the cost of ownership at the constructed asset 
level so that we are better able to address the question that 
you have raised. And that, frankly, will give us better 
information to be able to make judgments about adaptive reuse 
or disposal or privatization or whatever the preferred method 
of coping with that asset might be.
    Mr. Jones. General Flock, of the 7,000 homes that I believe 
you said, if I heard it correctly, that are--I guess, 7,000 
homes that are 50 years and older, being that I have Camp 
Lejeune and Cherry Point down in my district, where are the 
majority of these homes--and I know Camp Pendleton but where 
would the majority of those homes be that--which base seems to 
have the largest number?
    General Flock. Mr. Jones, the majority of our homes are 
going to be at Camp Pendleton and at Camp Lejeune, but for the 
record, I will provide you with a detailed list of exactly what 
bases those homes are at.
    [The information referred to can be found in the Appendix 
on page 89.]
    Mr. Jones. Well, yesterday, I had a relic of the Marine 
Corps to visit my office, the assassin, General Fred McCorkle.
    General Flock. I know him well, sir. I have worked with 
that gentleman.
    Mr. Jones. That was quite a thrill for my staff, because 
they have never met him, but we really enjoyed the visit.
    Let me ask Secretary Armbruster, are you familiar with the 
civil war cannon that was used during the civil war down at 
Fort Fisher in Wilmington, North Carolina?
    Secretary Armbruster. No, sir, I am not.
    Mr. Jones. Well, it is probably not fair to do this, but I 
might just drop you a note. This has been an ongoing issue. 
Somewhere along the way I think it was sent back--excuse me, it 
was used during the civil war down at Fort Fisher and it was on 
loan to West Point and now it is on loan back to Fort Fisher, 
and I have got a feeling that the state of North Carolina, 
which I am from North Carolina, obviously, is going to be 
involved in that.
    But we were somewhat working with Congressman McIntyre 
along the way. But I might just drop you a note and ask you for 
a current status on that issue in the months ahead.
    Secretary Armbruster. Be glad to follow up on that, sir.
    Mr. Jones. Thank you.
    And, Admiral, I would like to--this is a little bit off 
course, Mr. Chairman, but I think I have got two more minutes. 
You have talked about the museum down at Pensacola, and this 
has nothing to do with housing at all, but I hope maybe if I 
get reelected, I am going to probably bring this up next year.
    We got involved last year with a fellow from Minnesota who 
went down to my district and recovered a Brewster Corsair out 
of the swamps of Craven County and the pilot had ejected--or 
not ejected, but parachuted and was killed, a Marine pilot, 
back in 1944.
    And we ended up talking with Secretary England. This man 
was being sued by the Federal Government because he recovered 
the property, he was going to rebuild it and in the process of 
rebuilding it, stripping it and everything, it will be 
original, as close as it can be, when he finishes.
    This has not to do with housing, but I wanted to bring this 
up quickly. I do not understand the military's position when 
there is a property that is part of the history of this country 
and the military is not going to recover the property and they 
are not going to rebuild it and they are not going to do those 
kind of things.
    And this gentleman--real quickly, Mr. Chairman--this 
gentleman actually called the museum down at Pensacola, told 
them what he had done, that he was going to rebuild the plane, 
it would take him six, seven years to do it, and at that time 
he wanted to donate the Corsair that could fly back to the 
museum, and the only thing he wanted was that he would have 
another Corsair to recover and rebuild.
    The first gentleman he spoke to at the museum said, ``This 
is a great idea. There should be no problem.'' And then the 
superintendent of the museum heard about it and he said, ``That 
is our property,'' so they ended up suing him. It all worked 
itself out after a year and a half, thanks to Secretary England 
and Mr. Mora, the lawyer with the Navy.
    But I guess what I wanted to bring that up, Mr. Chairman, I 
think that some of these properties, the body has been removed 
years ago, and some of these properties that are out there 
sitting, rotting that could be part of the aviation or naval 
history of this country, I hope next year--and I am sorry you 
will not be back, by the way--but I hope that next year that 
maybe this committee, in addition to what we are talking about 
today, will look into how we can protect and preserve the 
military history of this country. So I have rambled enough. 
Thank you for your time and your answers. Thank you.
    Mr. Hefley. Mr. Jones, could I cosponsor that anyway, 
because I think you----
    Mr. Jones. Absolutely. Yes, sir.
    Mr. Hefley. I think you have a great idea, and I hope you 
will pursue that.
    Mr. Jones. Thank you, sir. Thank you.
    Mr. Hefley. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. Mr. Grone, this is 
just an opportune moment to ask you a question non-related to 
today's subject but I hope within your jurisdiction.
    As you know, late August the hurricane hit the Mississippi 
Gulf coast. I feel very confident that our Navy construction 
battalion has been adequately--that the plan is there to 
rebuild that installation. I feel very good about Keesler Air 
Force Base.
    I have great troubles when it comes to the Armed Forces 
Retirement Naval Home. It is my understanding from walking the 
building that almost nothing has been done to that installation 
since the storm. In fact, the staff has been let go in spite of 
the fact that Congress has allocated about $60 million toward 
that project.
    Now, that home, although it is fairly new, is the latest of 
a historical commitment to our nation's veterans. The citizens 
have spent about $45 million to build that facility. And just 
last week a commission, I presume, put together by Secretary 
Rumsfeld, has been coming back with some numbers. I think the 
low number was, like, $90 million and a high end of $590 
million to fix or replace it.
    What is going on? And I would remind you, Mr. Grone, that 
you did not say it, I did not say it, but no one less than the 
President of the United States stood on the gymnasium floor at 
St. Stanislaus High School in Bay St. Louis and said, quote, he 
was going to repair every Federal installation on the 
Mississippi Gulf coast.
    That is a Federal installation, and so what is happening? 
What is the game plan? Because no one has articulated it on 
behalf of the Administration what we are going to do to fix 
that facility.
    Secretary Grone. Well, Mr. Taylor, I, frankly, became aware 
of your concern on the question this afternoon. The armed 
forces retirement homes are not within my direct policy 
jurisdiction. They are generally managed from a policy 
perspective by the undersecretary of defense for personnel and 
readiness, but I understand the concern and the concern that 
you have expressed here today.
    I will go back and look into the question, and we will come 
back to you with an answer as quickly as we are able, because 
it is an important question and one you have raised some 
justified concern with, and we should get you an appropriate 
answer.
    [The information referred to can be found in the Appendix 
on page 89.]
    Mr. Taylor. Okay. Can you give me a timeline when I can 
expect an answer? Because, quite frankly, given the immediate 
needs of the citizens, this was kind of put on the backburner. 
But now that things are starting to get stabilized, it is a 
concern, it is a Federal installation, we have sunk a lot of 
money into it, and, quite frankly, it is a commitment to those 
guys who have been since picked up, transported to D.C. who 
would like to be returned to the Mississippi Gulf coast.
    Second thing is--I am searching for a little help on this--
I know that somewhere in the naval inventory, the USS 
Constitution is still carried on the books. One of the 
downsides of the storm was that hundreds of ancient oak trees, 
live oaks, were destroyed. The only good that could possibly 
come of that is if someone, if you could put us in touch with 
someone in the Navy who would be looking for that lumber since 
it is undoubtedly some of the best oak lumber you are ever 
going to find.
    If we could be put in touch with the folks responsible for 
the USS Constitution so that it just does not go to a landfill, 
that hopefully that if there is a use for it on the ship, that 
they could come down, survey it before this stuff is hauled off 
and either just shredded or burned.
    Admiral Shear. Sir, I understand that we did some of that 
after Hurricane Hugo, so I would imagine we could do the same 
thing.
    Mr. Taylor. Again, I will hopefully just pass the 
information on, and I hope you get it in the hands of the right 
people. Secretary Grone, again, please place a priority on the 
naval home.
    Secretary Grone. Yes, sir. I will go back and whatever I 
know this afternoon I will give you a call back and tell you 
what I know.
    Mr. Taylor. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Hefley. Mr. Abercrombie.
    Mr. Abercrombie. Thank you, Mr. Chairman. Secretary Grone, 
what a pleasure to be able to say that to you. And I do not 
know, Mr. Chairman, whether it has already been said for 
purposes of the record, but it is difficult for me to call you, 
Mr. Secretary, Phil because of my personal affection for you 
and my high regard for the work you did while you were working 
with this committee and most particularly with Mr. Hefley.
    Secretary Grone. Thank you, sir.
    Mr. Abercrombie. You have, Mr. Chairman, I will say a 
record of staff and members meeting the needs and the requests 
of the membership on behalf of the people of this country that 
will be the envy of any member serving on this committee and I 
can tell you of any member that has ever served in this body. 
You will rank in the very top row, as far as this member is 
concerned and as far as every other member that I know of as 
well.
    And as I said, that is setting you up, of course, Mr. 
Secretary, because of your previous record of competence, 
right? I particularly am pleased with the testimony or the 
report. I just want to differentiate a couple of things.
    Separating housing from homes. I understand the whole 
question of maintenance and all that, and, as you well know, 
the military housing project, of which you, again, can be 
justly proud of the legislation which came from this committee 
and is now manifesting itself, I differentiate between historic 
homes and housing.
    In some respects, I could call the housing where the Army 
is concerned at Schofield Barracks, that was housing, the 
barracks there. And I think we worked that with the whole 
barracks renewal in almost a perfect way. We took barracks 
that--as I just the other day saw, ``From Here to Eternity,'' 
again, the film, the barracks, as shown in that picture more 
than a half century old, were the way they were right virtually 
from the beginning until we did the whole barracks renewal.
    Now, we showed respect for the quadrangle, at Quadrangle D 
where the planes came in. All that facade and the grounds have 
been preserved, respectfully and truthfully. And at the same 
time then, the barracks have been, not restored, but renewed in 
a way that meets the most modern standards with regard to 
county codes, earthquakes, et cetera.
    So I do not have any problem with changing the definitions 
if you agree that there is a difference between historic homes, 
such as we have at Pearl Harbor, which may cost a good deal of 
money to restore and preserve and utilize, as opposed to 
housing, per se. If you agree.
    In reading your testimony, I take it that you were able to 
make that differentiation under the President's wording of 
existing legislation. Is that a correct statement?
    Secretary Grone. I believe that is a correct statement.
    Mr. Abercrombie. Okay. That said then, I am interested then 
in historic buildings versus merely old buildings, i.e., in my 
definition, historic only in the sense they are still standing. 
And that is where I think we may have a problem, and I am going 
to cite Fort Island. You cite yourself in the testimony that 
Fort Island has a particular emotional pull and historic value 
because of December 7.
    But I tell you, not everything that is standing there is 
historic, and we have had some real problems there right now. 
They are just old. Old hangars are not historic. They are just 
old and still standing. Shops and so on, we need to get rid of 
it, and I need to figure out how to get that done.
    Because if somebody is simply claiming they are historic, 
architecturally, they have no distinction; aesthetically, they 
are, at best, an eyesore; environmentally, they are a menace, 
they have no practical value at all, none, zero, not even to do 
another film such as was done out there at Pearl Harbor.
    So I say Scoffield barracks versus Fort Island. I do not 
want to get trapped. I know that there is an agreement there--
oh, hell, what is it called?
    Mr. Hefley. Your time is almost up, Mr. Abercrombie. You 
had better ask a question.
    Mr. Abercrombie. Well, the question has to do with this 
agreement that is cited in here--I forget the name of it--about 
historic preservation. I have got really severe problems with 
that, because I think that we are putting the Fort Island 
legislation, which, again, you are very familiar with, in 
jeopardy, because we are expecting either those who are trying 
to put the air museum together, that kind of thing, or the 
developer that is working with the Navy out there to get into 
expenditures that are totally unwarranted, and there will be no 
practical or historic value to preserving a lot of these 
buildings.
    So I hope we are not stuck on some kind of an agreement 
which maybe avoided lawsuits from fanatics but I do not think 
contributes anything in the way of historic preservation; in 
fact, undermines and undercuts the ability of those of us who 
do care about it.
    Secretary Grone. Mr. Abercrombie, I thank you for you 
earlier remarks, and I will try not to disappoint in the answer 
to your question.
    When I last looked at the Fort Island question, and it was 
sometime ago, and I am happy to go back at it look at it again, 
I was reasonably satisfied by the Navy, as we looked at that 
question, that process of the agreements would not have 
deleterious effect or significantly negative effect on the 
ability to proceed with the Fort Island development. If there 
are other issues that have arisen since then----
    Mr. Abercrombie. Well, I will tell you what, since I used 
so much time----
    Secretary Grone [continuing]. I would be happy to look at 
it.
    Mr. Abercrombie. Okay. Why don't we leave it at that, Mr. 
Chairman.
    If you would be willing to sit down, just take another 
look----
    Secretary Grone. Absolutely.
    Mr. Abercrombie [continuing]. Particularly with some of the 
things that I think might be able to happen at Fort Island that 
will benefit the Navy and the national security interests, I 
would be appreciative. I think it would be useful and helpful 
all the way around. Thank you so much.
    Secretary Grone. Thank you, sir.
    Mr. Abercrombie. Thank you, Mr. Chairman.
    Mr. Hefley. Thank you, Mr. Abercrombie. Thank you for your 
kind words as well. Gentlemen, I deferred my questions. We have 
got a series of votes coming up, and I do not want to keep you 
through that series, so we may submit to you some questions to 
come back to us in writing.
    But let me just ask this. As I mentioned earlier, the 
superintendent's house, it sounds to me, first of all, like you 
have, kind of, a handle on the routine historical thing. You 
have got a process to deal with that.
    But the exceptional ones, and let me refer back again to 
the superintendent's house at West Point, $1 million to repair 
the roof. Now, most Americans do not live in a $1 million home. 
And $6 million in additional repairs, probably, and an 
extremely small percentage of the American public live in a $7 
million home.
    You look at the--I think it was $3 million a few years ago 
when we looked at the superintendent's house at the Navy 
Academy, and at the Air Force Academy, I do not know how much 
that is going to be. They are talking about a lot of that. And 
down at the Navy yard, they are talking about $300,000 just to 
study a mold problem; not doing anything about it, just to 
study the mold problem. And then they are talking maybe as much 
as $5 million to do some kind of remediation.
    And so I guess what I am asking is, have you considered two 
things? One is taking these kind of properties and changing 
their use. Do not make them a home. Up at West Point, the 
superintendent has great affection for that home, and I 
understand why. It is right there in the middle of things, and 
it has a history, and great people have lived there and all 
that kind of thing.
    But in talking with the cadets that I got to talk to while 
I was there and talking with the graduates that I have had an 
opportunity to talk to, most of them told me they were never in 
that home, they do not have any particular tie to it.
    And so could that home could be made an alumni house or 
could it be made something for entertainment or something, 
which would not require, perhaps, the kind of renovation 
necessary for a place that is going to be a home?
    Certainly, down at the Navy yard the home we talked about, 
if you made it something else other than a home, it would not 
require that kind of expense.
    So same thing at the Air Force Academy. I mean, the Air 
Force Academy--at least at West Point, it is right there in the 
middle of things. At the Air Force Academy, it is a lovely 
home, old ranch house that has been added on to and so forth, 
but it is back in the trees. I wonder if many cadets ever even 
see the thing. But it is so nice, it is a wonderful home.
    And, second, have you thought about changing the law to the 
extent that we could have alumni associations and so forth come 
in and do the funding for these kind of homes?
    Secretary Grone. Mr. Chairman, I will be brief and then I 
will yield to my colleagues for whatever comments they care to 
make about specific projects.
    I do believe it is important for us to keep our options 
open with regard to end use of any asset. And we have done 
adaptive reuse on some general officer and flag officer 
quarters over the years. Whether we would in those cases or 
not, I think is still subject to study as a class. I do not 
want to comment about them all specifically. So, yes, I mean, I 
think adaptive reuse is clearly an issue.
    The underlying problem, however, on at least two of those 
three cases that you mentioned are we are frankly digging 
ourselves out of a hole that, in large measure, we created for 
ourselves.
    And in the context of the United States Military Academy, 
the life cycle, as I understand it, cost-to-benefit ratio of 
what is being requested in relation to how old the existing 
roof truly is, I think, is something that is worth looking at, 
that the total dollar amount at any one time is, yes, it is a 
large bumper sticker, it is a large number, but the fact of the 
matter is that we have not adequately sustained those assets 
over time.
    And I think a number of us are probably institutionally 
have a role to play, for example, in the Tingey House question. 
We had an opportunity to fully recapitalize the asset, the air 
conditioning and all those systems. Folks looked at the bill, 
decided it was too big. We did not do the HVAC system. Three, 
four years later, what do we have? A large mold problem. So we 
are going to pay for it twice.
    So the fundamental challenge is to get all of these assets 
into a program of adequate sustainability over time while 
leaving our options open on the adaptive reuse question, as you 
mentioned.
    Secretary Armbruster. I might just comment on your 
question. I share your concern, the Army does, in terms of the 
enormous cost figure that was associated with that.
    Several things. Yes, we are looking at alternative uses for 
that. That is an option for us up there. But immediate concern 
is a safety issue with respect to the roof, and I am told that 
West Point is submitting another work request for the roof and 
its support, and that is coming up to the Army, and I am told 
the estimated cost for that is somewhere around $500,000. So we 
do need to address that, and we will be coming back to you for 
that particular need.
    But also engaging with the graduates at West Point, the 
Congress has given us the authority to work in terms of private 
donations and the Association of Graduates that we believe are 
going to step up and provide and assist in that regard.
    So we have got a number of things working there. But the 
last major renovation on the Soups House was back in 1961 to 
1964. We have not been very good in terms of maintaining that 
over the sustainment piece. We have just got to do better on 
that.
    So we are looking at a number of options, but you are 
absolutely right, that $7 million figure was indeed sobering 
and staggering. We just simply have to do something other than 
accommodate to that figure. So we are working a number of 
options.
    Mr. Hefley. When you do these things, would you also look 
at the possibility of building a new Soups House and using this 
for something else? And any of these kind of buildings such as 
this. In this particular case, I do not think, no matter what 
we put into it, it is going to be a modern home for families to 
be raised in and things like that, because it is just a 
wonderful old building, it really is. I do not want to lose it, 
but----
    Secretary Armbruster. The historic part, of course, is the 
original hospitality rooms that go back to the early part of 
the 19th century. And it has been added on to, so you have got 
over 16,000 square feet up there now that--you know, whether 
all of that needs to survive is a question as well.
    Mr. Hefley. Well, thank you very much. I have got to get to 
the vote, but thank all of you, and we will submit some 
questions for the record. And work with us on this, because we 
want to work with you. We want to solve this problem in some 
way that will not take away from housing that our young 
soldiers need, soldiers and sailors and Marines, but at the 
same time preserve some of these things that really need to be 
preserved.
    And I am not suggesting we bulldoze any of the things I 
have mentioned, but, golly, we have got to bring the cost under 
control. And you are doing a good job of it. You came down 
$500,000 on the roof just today. I appreciate that. The 
subcommittee stands adjourned.
    [Whereupon, at 3:22 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             March 8, 2006

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 8, 2006

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3591.001
    
    [GRAPHIC] [TIFF OMITTED] T3591.002
    
    [GRAPHIC] [TIFF OMITTED] T3591.003
    
    [GRAPHIC] [TIFF OMITTED] T3591.004
    
    [GRAPHIC] [TIFF OMITTED] T3591.005
    
    [GRAPHIC] [TIFF OMITTED] T3591.006
    
    [GRAPHIC] [TIFF OMITTED] T3591.007
    
    [GRAPHIC] [TIFF OMITTED] T3591.008
    
    [GRAPHIC] [TIFF OMITTED] T3591.009
    
    [GRAPHIC] [TIFF OMITTED] T3591.010
    
    [GRAPHIC] [TIFF OMITTED] T3591.011
    
    [GRAPHIC] [TIFF OMITTED] T3591.012
    
    [GRAPHIC] [TIFF OMITTED] T3591.013
    
    [GRAPHIC] [TIFF OMITTED] T3591.014
    
    [GRAPHIC] [TIFF OMITTED] T3591.015
    
    [GRAPHIC] [TIFF OMITTED] T3591.016
    
    [GRAPHIC] [TIFF OMITTED] T3591.017
    
    [GRAPHIC] [TIFF OMITTED] T3591.018
    
    [GRAPHIC] [TIFF OMITTED] T3591.019
    
    [GRAPHIC] [TIFF OMITTED] T3591.020
    
    [GRAPHIC] [TIFF OMITTED] T3591.021
    
    [GRAPHIC] [TIFF OMITTED] T3591.022
    
    [GRAPHIC] [TIFF OMITTED] T3591.023
    
    [GRAPHIC] [TIFF OMITTED] T3591.024
    
    [GRAPHIC] [TIFF OMITTED] T3591.025
    
    [GRAPHIC] [TIFF OMITTED] T3591.026
    
    [GRAPHIC] [TIFF OMITTED] T3591.027
    
    [GRAPHIC] [TIFF OMITTED] T3591.028
    
    [GRAPHIC] [TIFF OMITTED] T3591.029
    
    [GRAPHIC] [TIFF OMITTED] T3591.030
    
    [GRAPHIC] [TIFF OMITTED] T3591.031
    
    [GRAPHIC] [TIFF OMITTED] T3591.032
    
    [GRAPHIC] [TIFF OMITTED] T3591.033
    
    [GRAPHIC] [TIFF OMITTED] T3591.034
    
    [GRAPHIC] [TIFF OMITTED] T3591.035
    
    [GRAPHIC] [TIFF OMITTED] T3591.036
    
    [GRAPHIC] [TIFF OMITTED] T3591.037
    
    [GRAPHIC] [TIFF OMITTED] T3591.038
    
    [GRAPHIC] [TIFF OMITTED] T3591.039
    
    [GRAPHIC] [TIFF OMITTED] T3591.040
    
    [GRAPHIC] [TIFF OMITTED] T3591.041
    
    [GRAPHIC] [TIFF OMITTED] T3591.042
    
    [GRAPHIC] [TIFF OMITTED] T3591.043
    
    [GRAPHIC] [TIFF OMITTED] T3591.044
    
    [GRAPHIC] [TIFF OMITTED] T3591.045
    
    [GRAPHIC] [TIFF OMITTED] T3591.046
    
    [GRAPHIC] [TIFF OMITTED] T3591.047
    
    [GRAPHIC] [TIFF OMITTED] T3591.048
    
    [GRAPHIC] [TIFF OMITTED] T3591.049
    
    [GRAPHIC] [TIFF OMITTED] T3591.050
    
    [GRAPHIC] [TIFF OMITTED] T3591.051
    
    [GRAPHIC] [TIFF OMITTED] T3591.052
    
    [GRAPHIC] [TIFF OMITTED] T3591.053
    
    [GRAPHIC] [TIFF OMITTED] T3591.054
    
    [GRAPHIC] [TIFF OMITTED] T3591.055
    
    [GRAPHIC] [TIFF OMITTED] T3591.056
    
    [GRAPHIC] [TIFF OMITTED] T3591.057
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 8, 2006

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. I do not understand the first phrase of it that talks 
about maintenance on a structural basis does appear to be more costly. 
What does the phrase, ``structural basis,'' mean?
    General Flock. ``Structural basis'' refers to architectural 
features of buildings, such as foundations, walls and roofs. Some of 
our very old buildings have unique architectural features that appear 
to result in increased maintenance costs. For example, some of our 
general officer quarters have slate roofs. A slate roof will last about 
100 years as compared to an asphalt shingle roof (the kind of roofing 
material sold at home center stores like Home Deport and Lowes) that 
will last about 20 years. Of the two, a slate roof is more expensive to 
install. However, when compared to an asphalt shingle roof, the life-
cycle costs are similar or less as it would be necessary to replace the 
slate roof once in 100 years whereas it would be necessary to replace 
the asphalt shingle roof 5 times in 100 years. For buildings we intend 
to keep, the ability to use the materials with the lowest life-cycle 
cost clearly makes financial sense.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TAYLOR

    Mr. Taylor. The Armed Forces Retirement Naval Home is a federal 
installation, and so what is happening? What is the game plan? Because 
no one has articulated it on behalf of the Administration what we are 
going to do to fix that facility.
    Secretary Grone. [The information was not available at the time of 
printing.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. JONES

    Mr. Jones. General Flock, of the 7,000 homes that I believe you 
said, if I heard it correctly, that are--I guess, 7,000 homes that are 
50 years and older, being that I have Camp Lejeune and Cherry Point 
down in my district, where are the majority of these homes--and I know 
Camp Pendleton but where would the majority of those homes be that--
which base seems to have the largest number?
    General Flock. Currently, the Marine Corps has about 7,400 
buildings that are over 50 years old. Of these, about 90 are family 
housing buildings that are mostly located at Marine Corps Air Station 
Cherry Point (49 buildings) and Marine Corps Base Hawaii (31 
buildings). In ten years, an additional 7,150 buildings will turn 50 
years old. Of these, about 1,200 are family housing buildings; about 
50% are located at Cherry Point and 30 percent at Hawaii. The majority 
of these family housing buildings at these two locations will be 
demolished and replaced as a result of privatization efforts planned 
for the next two years.

                                  <all>

</pre></body></html>
